APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Supreme Court of Georgia Denying
Petition for Certiorari (March 13, 2020) ........... 1a
Opinion of the Court of Appeals of Georgia
(June 21, 2019) ................................................... 2a
Order of Plaintiff’s Motion for Summary Judgment
(April 26, 2018) ................................................... 4a
STATUTORY PROVISIONS
Relevant Statutory Provisions ............................... 18a
OTHER DOCUMENT
Antenuptial Agreement Between Snyder and
Sheng (January 20, 2010).......................... 34a

App.1a
ORDER OF THE SUPREME COURT OF GEORGIA
DENYING PETITION FOR CERTIORARI
(MARCH 13, 2020)
SUPREME COURT OF GEORGIA
________________________
ZHIHENG SHENG
v.
DANIEL MICHAEL SNYDER
________________________
Case No. S19C1629
Court of Appeals Case No. A19A0517
Before: MELTON, C.J., NAHMIAS, P.J., and
BLACKWELL, BOGGS, PETERSON, WARREN,
BETHEL and ELLINGTON, JJ.
The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
The Supreme Court today denied the petition for
certiorari in this case.
Melton, C.J., Nahmias, P.J., and Blackwell, Boggs,
Peterson, Warren, Bethel and Ellington, JJ., concur.

App.2a
OPINION OF THE
COURT OF APPEALS OF GEORGIA
(JUNE 21, 2019)
IN THE COURT OF APPEALS OF GEORGIA
________________________
SHENG
v.
SNYDER
________________________
A19A0517
Fifth Division
Before: McMILLIAN J., McFADDEN, P.J., GOSS, J.
MCMILLIAN, Judge.
In this case, the following circumstances exist
and are dispositive of the appeal:
(1) The evidence supports the judgment;
(2) No reversible error of law appears, and an
opinion would have no precedential value;
(3) The judgment of the court below adequately
explains the decision; and
(4) The issues are controlled adversely to the
appellant for the reasons and authority given
in the appellee’s brief.
The judgment of the court below therefore is
affirmed in accordance with Court of Appeals Rule 36.

App.3a
Judgment affirmed. McFadden, P.J., and Goss, J.,
concur.

App.4a
ORDER OF PLAINTIFF’S
MOTION FOR SUMMARY JUDGMENT
(APRIL 26, 2018)
IN THE SUPERIOR COURT OF FULTON COUNTY
STATE OF GEORGIA
________________________
DANIEL MICHAEL SNYDER
as Executor of the Estate of James P. Snyder,

Plaintiff,
v.
ZHIHENG SHENG,

Defendant.
________________________
Civil Action File No. 2017CV285151
Before: Henry M. NEWKIRK,
Judge, Superior Court of Fulton County.
This matter came before the Court for oral argument on March 22, 2018 on the Plaintiff’s Motion for
Summary Judgment filed on February 8, 2018. After
consideration of the record, all relevant factual evidence
referenced by the parties, the briefs, the applicable
law, and the oral argument from counsel at the hearing
on March 22, 2018, the Court finds and concludes as
follows:

App.5a
I.

Background

This action was initially filed on January 23, 2017.
In his Complaint, the Plaintiff sought access to the
residence owned by the Decedent in order to undertake
his obligations as the Executor of the Estate. An Order
granting access to the residence was entered by this
Court on August 30, 2017. A hearing to determine
ownership of certain tangible personal property located
inside the residence was held on September 22, 2017.
Counsel for the Plaintiff stated in judicio on March 22,
2018, that the issues regarding access to the residence,
trespass, and conversion were resolved by the Court’s
Orders entered August 30, 2017 and November 30,
2017.
The Defendant filed an answer and counterclaim
on February 27, 2017, seeking declaratory judgment
as to the Defendant’s residuary interest in the Estate,
entitlement to the Retirement Account (specifically
referring to the account ending in #1326), and a declaratory judgment as to the rights and responsibilities
of the parties under the law and the Prenuptial
Agreement. The Plaintiff filed an amended Complaint
on April 25, 2017, seeking relief based upon various
state law contract claims and Defendant’s breach of
the Prenuptial Agreement.
The Plaintiff subsequently filed a motion for
summary judgment on February 8, 2018, requesting
summary judgment be issued on the Plaintiff’s breach
of contract claim and destruction of personality claim.
The Plaintiff alleged that the Defendant breached the
Prenuptial Agreement when (1) she claimed the proceeds of the Decedent’s Retirement Account and failed
to compensate the Estate for the value of the Retirement Account and (2) when she requested a declaratory

App.6a
judgment from the Court finding that she was entitled
to the Retirement Account and a 1/3 residuary interest
in the Decedent’s estate. The Plaintiff’s Motion for
Summary Judgment also requests that the Court issue
a summary judgment on the destruction of personality
claim for the Defendant’s destruction of four pieces of
artwork belonging to the Estate.
II.

The Prenuptial Agreement

The Defendant and the Decedent entered into an
Antenuptial Agreement (the “Prenuptial Agreement”)
on January 20, 2010 in anticipation of their marriage.
In the Prenuptial Agreement, the parties formalized
their duties and obligations to each other as to their
respective rights in the property or the estate of the
other in the event of dissolution of the marriage or
death of either party. In relevant part, the Prenuptial
Agreement provides as follows:
Paragraph 3: Assets as Separate Property of
the Spouses, “Each of the parties agrees that
the property identified as Exhibits A and B
and described hereafter shall remain the
separate property of the other party. All
property, whether real or personal, choses in
possession and in action, and any and all
claims, demands, actions, and causes of action, belonging to the other party at the
commencement of their marriage, including
all such property acquired by each of them
in their separate names while living together
as Husband and Wife . . .”
Paragraph 4: Separately Acquired Property.
“Any property, whether real or personal . . .
acquired by either party in his or her individ-

App.7a
ual capacity after the marriage, shall be the
separate property of the individual acquiring
the property and neither party shall make
any claim to or demand on such separately
acquired property of the other, . . . nor shall
either party make any such claim or demand
on the heirs, executors, or administration of
the other party, and such property shall be
free of all rights that the other might acquire
by reason of said marriage or of any consequence thereof.”
Paragraph 6: Release of Marital Property
Rights. “The parties hereby waive and release
any and all right, title, and interest that each
may acquire by operation of law, upon solemnization of the marriage, to that property
specified as the separate property of the other
spouse in Exhibits A and B . . .”
Paragraph 7: Release of Rights of Inheritance.
“Each party clearly understands that if the
other party should predecease him/her, his/her
statutory interest in the estate of the other
party could be a substantial amount . . . Each
of the parties forever waives, releases, and
relinquishes any right or claim of any kind,
character, or nature whatsoever that either
may have or shall have in and to the estate,
property, assets, or other effects of the other
under any present or future law of the State
of Georgia or any other state or of the United
States or foreign jurisdiction . . .”
Paragraph 10: Disposition of Property to
Spouse. “Notwithstanding any other provision
of this Agreement, either party may, by

App.8a
appropriate written instrument only, transfer,
convey, devise of bequeath any property to
the other . . .”
Paragraph 11: Waiver or Release of Rights in
General. “ . . . each of the parties forever
waives, releases and relinquishes to the other,
and to the heirs, executors, administrators,
devisees, legatees, and assigns of the other,
all rights, interest, or claims of inheritance,
and to a distributive share in the estate of
the other (in event of intestacy) either as
widow, widower, heir, survivor, distributee,
or next of kin in and all of the estate of the
other . . . and all other claims whatsoever
which may in any manner arise or accrue by
virtue of the marriage of the parties under
any present or future law (whether statutory
or common law) of the State of Georgia or of
any other state or of the United States or
foreign jurisdiction, and further waives and
releases any and all marital property rights
whatsoever in the property of the other.”
III. Undisputed Material Facts
After review of the record evidence, the Court
finds the following material facts are undisputed:
1. James P. Snyder (the “Decedent”) and Zhiheng
Sheng entered into an antenuptial agreement (the
“Prenuptial Agreement”) on January 20, 2010 and
were married on January 30, 2010.
2. The Prenuptial Agreement states that the
separate assets of the parties shall remain the separate
property of the original owner and any property separ-

App.9a
ately acquired during the marriage shall remain the
separate property of the parties (absent express
written documentation in either a lawfully executed
Will or an “appropriate written instrument only” granting rights by one spouse to the other spouse that were
otherwise waived under the Prenuptial Agreement).
3. The Prenuptial Agreement states in Paragraph
4 that “neither party shall make any claim to or
demand on such separately acquired property of the
other, nor shall either party make any such claim or
demand on the heirs, executors, or administrators of
the other party, and such property shall be free of all
rights that the other might acquire by reason of said
marriage or any consequences thereof.”
4. The Prenuptial Agreement states in Paragraph
6 that the “parties hereby waive and release any and
all right, title and interest that each may acquire by
operation of law, upon solemnization of the marriage,
to that property specified as the separate property of
the other spouse, in Exhibits A and B . . .”
5. The Prenuptial Agreement (in Paragraphs 7
and 11) releases any rights of inheritance from the
other party or the other party’s estate that arise or were
created as a result of the marriage.
6. Exhibit B of the Prenuptial Agreement identifies the Decedent’s “Emory Pension Vanguard #1326”
(the “Retirement Account”) as his separate asset.
7. The Retirement Account listed on Exhibit B is
the same account that was distributed to the Defendant
by Vanguard.
8. The Prenuptial Agreement was never modified
by the parties.

App.10a
9. When she executed the Prenuptial Agreement,
the listing of the Retirement Account on Exhibit B
informed Defendant that the Decedent maintained a
retirement account at Emory.
10. The Decedent departed this life on January
16, 2016.
11. The Retirement Account was governed by the
Employee Retirement Income Security Act of 1974
(ERISA).
12. At no time after the marriage did the Defendant execute a valid ERISA spousal waiver.
13. On April 8, 2016, in response to the Defendant’s claim Vanguard distributed $193,213.42, representing the full balance of the Retirement Account at
that time, to the Defendant.
14. Vanguard paid the proceeds of the Retirement
Account to the Defendant under the provisions of
ERISA.
15. Following the Decedent’s death, the Defendant did not execute a disclaimer to the Retirement
Account which would have allowed Vanguard to pay
the plan benefits to the Decedent’s Estate or the
Decedent’s children.
16. The Defendant has not turned over the
proceeds of the Retirement Account to the Decedent’s
Estate.
17. The Defendant has failed to deliver the Retirement Account or an amount of money equivalent to
the value of the Retirement Account to the Decedent’s
Estate.

App.11a
18. The Defendant requested a declaratory judgment finding that she is entitled to the Retirement
Account and a one-third (1/3) share of the residue of
the Decedent’s Estate.
19. Following the Decedents’ death, the Defendant destroyed four paintings that belonged to the
Estate.
20. Ms. Sheng never paid the Estate for the value
of the destroyed paintings.
IV. Standard for Motion for Summary Judgment
On a motion for summary judgment under
O.C.G.A. § 9-11-56, the moving party has the burden
of demonstrating that there is no issue of material
fact as to all of the essential elements of his or her
claim. In determining whether the movant has carried
this burden, the Court must view the evidence and
all factual inferences in the light most favorable to
the nonmovant. O.C.G.A. § 9-11-56(c); Lau’s Corp. v.
Haskins, 261 Ga. 491 (1991).
V.

The Court’s Findings
A. ERISA Issues

The Defendant asserts that the Plaintiff’s breach
of contract claim with regard to the Retirement Account
was preempted under the provisions of ERISA; however, there is no dispute between the parties that
Defendant was entitled under the provisions of ERISA
to the Retirement Account as the spouse of the
Decedent. The Supreme Court of Georgia has held,
however, that ERISA does not preempt a state law
cause of action for breach of contract to recoup benefits
paid under ERISA because such claims are not in

App.12a
conflict with ERISA’s objectives. Appleton v. Alcorn, 291
Ga. 107, 728 S.E.2d 549, 12 FCDR 1761 (Ga., 2012).
Therefore, the Defendant’s defense that her entitlement
to the Retirement Account under the provisions of
ERISA superseded her contractual obligations under
state law is misplaced. In this case, ERISA has no
controlling effect as to the parties’ obligations under
the Prenuptial Agreement. Although the Defendant
was entitled to the Retirement Account under Federal
law, she cannot escape her contractual obligation to
compensate the Estate for the value of the Retirement
Account under the terms of the Prenuptial Agreement
after her acceptance of the Retirement Account.
B. Enforceable Prenuptial Agreement
The Prenuptial Agreement is binding and enforceable as written. In Georgia, three factors are to be
considered in deciding the validity of a prenuptial agreement: “(1) Was the agreement obtained through fraud,
duress or mistake, or through misrepresentation or
nondisclosure of material facts? (2) Is the agreement
unconscionable? (3) Have the facts and circumstances
changed since the agreement was executed, so as to
make its enforcement unfair and unreasonable?”
Scherer v. Scherer , 249 Ga. 635 (3), 292 S.E.2d 662
(1982).
The Defendant alleges that she was under duress
when she entered into the Prenuptial Agreement
because she had relocated to the United States on a
fiancé visa which would expire within a short period
of time after her arrival in the United States. The
Court finds that there is no evidence of duress. By
her own testimony and her disclosed assets attached to
the Prenuptial Agreement as Exhibit A, the Defendant

App.13a
had significant assets and could have returned to
China had she not been comfortable signing the Prenuptial Agreement. Further, the Defendant’s testimony reflects her intent to return China shortly after
the marriage to continue operating her English school
in China; therefore, the assertion that the Defendant
was under a strict timeline to marry the Decedent is
not supported by the evidence.
The Defendant did not assert that the Prenuptial
Agreement was unconscionable or that the facts and
circumstances changed so as to make the Prenuptial
Agreement unfair or unreasonable. The Court is not
aware of any such grounds for finding the Prenuptial
Agreement to be unenforceable.
C. No Ambiguity
The terms of the Prenuptial Agreement clearly and
unambiguously state the intentions of the parties;
therefore, no parol evidence is admissible to explain or
modify the clear meaning of the terms in the agreement
and it is unnecessary for Court to look outside the four
corners of the Prenuptial Agreement to determine
the parties’ intent. The Prenuptial Agreement clearly
provides, in relevant part, that the parties “waived”
interests in each other’s assets and estates. There is
nothing ambiguous about the language in these paragraphs. Rather, a simple reading of the contract terms
shows the specific intentions of the parties. As such,
the Court must look only to the four corners of the
agreement and should ascertain the intentions of the
parties from the clear meaning of the language used
therein. Verret v. ABB Power T&D Company, Inc., 515
S.E.2nd 435, 237 Ga. App. 492 (Ga. App. 1999). Therefore, the Defendant’s execution of the Prenuptial Agree-

App.14a
ment constitutes her knowing waiver of any and all
claims of a right to obtain and/or retain the Retirement Account. The Defendant admitted that she
understood the Prenuptial Agreement to mean that
she waived any interest in the Retirement Account.
Nonetheless, she did, in fact, claim the Retirement
Account and failed to compensate the Estate for the
value of the Retirement Account.
D. Breach
“Parties to a contract are presumed to have read
their provisions and to have understood the contents.
One who can read, must read, for he is bound by his
contracts.” O’Brien Family Trust v. Glen Falls Ins.
Co., 218 Ga. App. 379 (1995).
Defendant was represented by counsel to negotiate
the Prenuptial Agreement. She has a college degree
in English and business. Both parties were assisted
by counsel and each party entered into the Prenuptial
Agreement with significant assets. It is clear from
the agreement that they knew what they were waiving;
the Defendant understood the Prenuptial Agreement
and yet she claimed and retained the Retirement
Account and sought to be entitled to a one-third (1/3)
share of the Decedent’s residuary estate.
The Court finds that the Prenuptial Agreement
is valid and enforceable under Georgia law and the
Defendant clearly and effectively waived all right,
title and interest in the Retirement Account and any
claim to the residuary of the Decedent’s Estate. The
language of the waivers in the Prenuptial Agreement
is clear and enforceable. Because this case is a matter
of pure contract law is not governed by ERISA, the
broad waivers of the Prenuptial Agreement are

App.15a
enforceable. When the Defendant (a) pursued the
Retirement Account, despite her unambiguous waiver,
(b) refused to disclaim the Retirement Account, and (c)
refused to pay to the Estate the value of the benefits
received from the Retirement Account she materially
breached the terms of the Prenuptial Agreement. When
the Defendant further filed action for Declaratory
Judgment, seeking a court order awarding her the
Retirement Account and finding she was entitled to a
1/3 share of the residue of the Decedent’s Estate,
despite her unambiguous waiver, she materially
breached the terms of the Agreement.
E. Damages
As a result of Defendant’s breach and supporting
evidence before the Court, the Court finds that the
Plaintiff has suffered damages for which the Plaintiff
is entitled to recover damages from the Defendant,
as follows; (1) the Estate has been deprived of the
funds constituting the value of the Retirement Account
since the date of the Decedent’s death. As such the
Plaintiff has incurred damages an amount equal to
the sum of (A) $193,213.42 received by Defendant on
April 8, 2016, plus (B) any subsequent earnings or
appreciation in such funds from and after such date.
F. Personality
Defendant admitted her destruction of paintings
described by Defendant as “Aming’s [sic.] paintings”
in her deposition. Defendant knew that Aiming Sun
was the painter that made the paintings. Defendant
has not denied such destruction but asserted ambiguity
as to ownership of the paintings. The Court finds that
the paintings were assets of the Decedent’s Estate and

App.16a
that Defendant is liable to Plaintiff for the damages
caused by her destruction of the paintings, in an
amount to be proven by Plaintiff.
VI. Conclusions
ACCORDINGLY, IT IS ORDERED AND ADJUDGED that the Court hereby GRANTS Plaintiff’s
Motion for Summary Judgment.
IT IS FURTHER ORDERED, that Defendant shall
pay Plaintiff the sum of (a) One Hundred Ninety
Thousand Two Hundred Thirteen and 32/100 Dollars
($193,213.32) plus (b) the earnings and appreciation
in the funds held by the Retirement Account since
Defendant’s receipt of same as though the Retirement
Account had remained invested as it was on the date
Defendant obtained the Retirement Account. Such
payment shall be made no later than ten (10) days
after the date of this Order.
IT IS FURTHER ORDERED that the parties shall
attempt to reach a resolution on the value of the
destroyed paintings and shall report the same to the
Court within sixty (60) days of this Order. If the parties
are unable to reach a resolution on the value of the
paintings a hearing on damages shall be conducted
on July 2nd, 2018. @10:00AM.
SO ORDERED this 26th day of April, 2018.

App.17a
/s/ Judge Henry M. Newkirk
Superior Court of Fulton County
Order Prepared by:
/s/
Albert Caproni III
Georgia Bar No. 108925
Margaret A. Head
Georgia Bar No. 181406
Attorneys for the Estate of James P. Snyder
Cohen & Caproni, LLC
750 Hammond Drive Building 7, Suite 200
Atlanta, GA 30328
Telephone: 404-252-8080
Facsimile: 404-252-9324
Email: acaproni@cohenandcaproni.com
mhead@cohenandcaproni.com

App.18a
RELEVANT STATUTORY PROVISIONS
29 U.S.C. § 1001(b)
(a) Findings
The Congress finds that—
(1) single-employer defined benefit pension plans
have a substantial impact on interstate commerce
and are affected with a national interest;
(2) the continued well-being and retirement
income security of millions of workers, retirees, and
their dependents are directly affected by such plans;
(3) the existence of a sound termination insurance system is fundamental to the retirement income
security of participants and beneficiaries of such plans;
and
(4) the current termination insurance system in
some instances encourages employers to terminate
pension plans, evade their obligations to pay benefits,
and shift unfunded pension liabilities onto the termination insurance system and the other premium-payers.
(b) Additional Findings
The Congress further finds that modification of the
current termination insurance system and an increase
in the insurance premium for single-employer defined
benefit pension plans—
(1) is desirable to increase the likelihood that
full benefits will be paid to participants and beneficiaries of such plans;

App.19a
(2) is desirable to provide for the transfer of liabilities to the termination insurance system only in cases
of severe hardship;
(3) is necessary to maintain the premium costs
of such system at a reasonable level; and
(4) is necessary to finance properly current
funding deficiencies and future obligations of the
single-employer pension plan termination insurance
system.
[...]
(c) Declaration of Policy
It is hereby declared to be the policy of this title—
(1) to foster and facilitate interstate commerce;
(2) to encourage the maintenance and growth of
single-employer defined benefit pension plans;
(3) to increase the likelihood that participants
and beneficiaries under single-employer defined benefit pension plans will receive their full benefits;
(4) to provide for the transfer of unfunded pension
liabilities onto the single-employer pension plan
termination insurance system only in cases of severe
hardship;
(5) to maintain the premium costs of such system
at a reasonable level; and
(6) to assure the prudent financing of current
funding deficiencies and future obligations of the singleemployer pension plan termination insurance system
by increasing termination insurance premiums.

App.20a
29 U.S.C. § 1001(c)
(c) Protection of Interstate Commerce, the Federal
Taxing Power, and Beneficiaries by Vesting of
accrued Benefits, Setting Minimum Standards of
Funding, Requiring Termination Insurance
It is hereby further declared to be the policy of this
chapter to protect interstate commerce, the Federal
taxing power, and the interests of participants in
private pension plans and their beneficiaries by improving the equitable character and the soundness of such
plans by requiring them to vest the accrued benefits of
employees with significant periods of service, to meet
minimum standards of funding, and by requiring
plan termination insurance.

29 U.S.C. § 1055 (a)
(a) Required Contents for Applicable Plans
Each pension plan to which this section applies
shall provide that—
(1) in the case of a vested participant who does
not die before the annuity starting date, the accrued
benefit payable to such participant shall be provided
in the form of a qualified joint and survivor annuity,
and
(2) in the case of a vested participant who dies
before the annuity starting date and who has a surviving spouse, a qualified preretirement survivor annuity
shall be provided to the surviving spouse of such
participant.

App.21a
29 U.S.C. § 1055 (c)(2)
(c) Plans Meeting Requirements of Section
(1) A plan meets the requirements of this section only if—
(A) under the plan, each participant—
(i)

may elect at any time during the applicable
election period to waive the qualified joint
and survivor annuity form of benefit or the
qualified preretirement survivor annuity form
of benefit (or both),

(ii) if the participant elects a waiver under clause
(i), may elect the qualified optional survivor
annuity at any time during the applicable
election period, and
(iii) may revoke any such election at any time
during the applicable election period, and
(B) the plan meets the requirements of paragraphs (2), (3), and (4).
(2) Each plan shall provide that an election under
paragraph (1)(A)(i) shall not take effect unless—
(A)
(i)

the spouse of the participant consents in
writing to such election, (ii) such election
designates a beneficiary (or a form of benefits) which may not be changed without
spousal consent (or the consent of the spouse
expressly permits designations by the participant without any requirement of further
consent by the spouse), and (iii) the spouse’s
consent acknowledges the effect of such

App.22a
election and is witnessed by a plan representative or a notary public, or
(B) it is established to the satisfaction of a plan
representative that the consent required under
subparagraph (A) may not be obtained because
there is no spouse, because the spouse cannot be
located, or because of such other circumstances
as the Secretary of the Treasury may by regulations prescribe.
Any consent by a spouse (or establishment that the
consent of a spouse may not be obtained) under the
preceding sentence shall be effective only with
respect to such spouse.

29 U.S.C. § 1144
(a) Supersedure; Effective Date
Except as provided in subsection (b) of this section,
the provisions of this subchapter and subchapter III
shall supersede any and all State laws insofar as
they may now or hereafter relate to any employee
benefit plan described in section 1003(a) of this title
and not exempt under section 1003(b) of this title.
This section shall take effect on January 1, 1975.
(b) Construction and Application
(1) This section shall not apply with respect to
any cause of action which arose, or any act or omission which occurred, before January 1, 1975.

App.23a
(2)
(A) Except as provided in subparagraph (B),
nothing in this subchapter shall be construed to
exempt or relieve any person from any law of
any State which regulates insurance, banking,
or securities.
(B) Neither an employee benefit plan described in
section 1003(a) of this title, which is not exempt
under section 1003(b) of this title (other than a
plan established primarily for the purpose of
providing death benefits), nor any trust established under such a plan, shall be deemed to be
an insurance company or other insurer, bank,
trust company, or investment company or to be
engaged in the business of insurance or banking
for purposes of any law of any State purporting
to regulate insurance companies, insurance contracts, banks, trust companies, or investment
companies.
(3) Nothing in this section shall be construed to
prohibit use by the Secretary of services or facilities
of a State agency as permitted under section 1136 of
this title.
(4) Subsection (a) shall not apply to any generally
applicable criminal law of a State.
(5)
(A) Except as provided in subparagraph (B),
subsection (a) shall not apply to the Hawaii Prepaid Health Care Act (Haw. Rev. Stat. §§ 393–1
through 393–51).
(B) Nothing in subparagraph (A) shall be construed to exempt from subsection (a)—

App.24a
(i)

any State tax law relating to employee benefit plans, or

(ii) any amendment of the Hawaii Prepaid Health
Care Act enacted after September 2, 1974, to
the extent it provides for more than the
effective administration of such Act as in
effect on such date.
(C) Notwithstanding subparagraph (A), parts 1
and 4 of this subtitle, and the preceding sections
of this part to the extent they govern matters
which are governed by the provisions of such parts
1 and 4, shall supersede the Hawaii Prepaid
Health Care Act (as in effect on or after January
14, 1983), but the Secretary may enter into cooperative arrangements under this paragraph and
section 1136 of this title with officials of the
State of Hawaii to assist them in effectuating
the policies of provisions of such Act which are
superseded by such parts 1 and 4 and the preceding sections of this part.
(6)
(A) Notwithstanding any other provision of this
section—
(i)

in the case of an employee welfare benefit
plan which is a multiple employer welfare
arrangement and is fully insured (or which is
a multiple employer welfare arrangement
subject to an exemption under subparagraph
(B)), any law of any State which regulates
insurance may apply to such arrangement
to the extent that such law provides—

App.25a
(I)

standards, requiring the maintenance
of specified levels of reserves and specified levels of contributions, which any
such plan, or any trust established under
such a plan, must meet in order to be
considered under such law able to pay
benefits in full when due, and

(II) provisions to enforce such standards,
and
(ii) in the case of any other employee welfare
benefit plan which is a multiple employer welfare arrangement, in addition to this subchapter, any law of any State which regulates
insurance may apply to the extent not
inconsistent with the preceding sections of
this subchapter.
(B) The Secretary may, under regulations which
may be prescribed by the Secretary, exempt from
subparagraph (A)(ii), individually or by class,
multiple employer welfare arrangements which
are not fully insured. Any such exemption may
be granted with respect to any arrangement or
class of arrangements only if such arrangement
or each arrangement which is a member of such
class meets the requirements of section 1002(1)
and section 1003 of this title necessary to be considered an employee welfare benefit plan to
which this subchapter applies.
(C) Nothing in subparagraph (A) shall affect the
manner or extent to which the provisions of this
subchapter apply to an employee welfare benefit
plan which is not a multiple employer welfare
arrangement and which is a plan, fund, or pro-

App.26a
gram participating in, subscribing to, or otherwise
using a multiple employer welfare arrangement
to fund or administer benefits to such plan’s
participants and beneficiaries.
(D) For purposes of this paragraph, a multiple
employer welfare arrangement shall be considered
fully insured only if the terms of the arrangement provide for benefits the amount of all of
which the Secretary determines are guaranteed
under a contract, or policy of insurance, issued
by an insurance company, insurance service, or
insurance organization, qualified to conduct business in a State.
(7) Subsection (a) shall not apply to qualified
domestic relations orders (within the meaning of
section 1056(d)(3)(B)(i) of this title), qualified medical
child support orders (within the meaning of section
1169(a)(2)(A) of this title), and the provisions of law
referred to in section 1169(a)(2)(B)(ii) of this title to the
extent they apply to qualified medical child support
orders.
(8) Subsection (a) of this section shall not be
construed to preclude any State cause of action—
(A) with respect to which the State exercises its
acquired rights under section 1169(b)(3) of this
title with respect to a group health plan (as
defined in section 1167(1) of this title), or
(B) for recoupment of payment with respect to
items or services pursuant to a State plan for
medical assistance approved under title XIX of
the Social Security Act [42 U.S.C. 1396 et seq.]
which would not have been payable if such
acquired rights had been executed before pay-

App.27a
ment with respect to such items or services by
the group health plan.
(9) For additional provisions relating to group
health plans, see section 1191 of this title.
(c) Definitions
For purposes of this section:
(1) The term “State law” includes all laws, decisions, rules, regulations, or other State action having
the effect of law, of any State. A law of the United
States applicable only to the District of Columbia
shall be treated as a State law rather than a law of
the United States.
(2) The term “State” includes a State, any political
subdivisions thereof, or any agency or instrumentality
of either, which purports to regulate, directly or
indirectly, the terms and conditions of employee
benefit plans covered by this subchapter.
(d) Alteration, Amendment, Modification, Invalidation,
Impairment, or Supersedure of Any Law of the
United States Prohibited
Nothing in this subchapter shall be construed to
alter, amend, modify, invalidate, impair, or supersede
any law of the United States (except as provided in
sections 1031 and 1137(b) of this title) or any rule or
regulation issued under any such law.
(e) Automatic Contribution Arrangements
(1) Notwithstanding any other provision of this
section, this subchapter shall supersede any law of a
State which would directly or indirectly prohibit or
restrict the inclusion in any plan of an automatic

App.28a
contribution arrangement. The Secretary may prescribe regulations which would establish minimum
standards that such an arrangement would be required
to satisfy in order for this subsection to apply in the
case of such arrangement.
(2) For purposes of this subsection, the term
“automatic contribution arrangement” means an
arrangement—
(A) under which a participant may elect to have
the plan sponsor make payments as contributions under the plan on behalf of the participant,
or to the participant directly in cash,
(B) under which a participant is treated as having
elected to have the plan sponsor make such contributions in an amount equal to a uniform percentage of compensation provided under the plan
until the participant specifically elects not to have
such contributions made (or specifically elects to
have such contributions made at a different percentage), and
(C) under which such contributions are invested
in accordance with regulations prescribed by the
Secretary under section 1104(c)(5) of this title.
(3)
(A) The plan administrator of an automatic contribution arrangement shall, within a reasonable
period before such plan year, provide to each
participant to whom the arrangement applies for
such plan year notice of the participant’s rights
and obligations under the arrangement which—

App.29a
(i)

is sufficiently accurate and comprehensive
to apprise the participant of such rights and
obligations, and

(ii) is written in a manner calculated to be understood by the average participant to whom
the arrangement applies.
(B) A notice shall not be treated as meeting the
requirements of subparagraph (A) with respect
to a participant unless—
(i)

the notice includes an explanation of the
participant’s right under the arrangement
not to have elective contributions made on
the participant’s behalf (or to elect to have
such contributions made at a different percentage),

(ii) the participant has a reasonable period of
time, after receipt of the notice described in
clause (i) and before the first elective contribution is made, to make such election, and
(iii) the notice explains how contributions made
under the arrangement will be invested in
the absence of any investment election by the
participant.

GA 9-11-56
Summary Judgment
(a) For Claimant
A party seeking to recover upon a claim, counterclaim, or cross-claim or to obtain a declaratory
judgment may, at any time after the expiration of 30

App.30a
days from the commencement of the action or after
service of a motion for summary judgment by the
adverse party, move with or without supporting affidavits for a summary judgment in his favor upon all
or any part thereof.
(b) For Defending Party
A party against whom a claim, counterclaim, or
cross-claim is asserted or a declaratory judgment is
sought may, at any time, move with or without supporting affidavits for a summary judgment in his favor as
to all or any part thereof.
(c) Motion and Proceedings Thereon
The motion shall be served at least 30 days before
the time fixed for the hearing. The adverse party prior
to the day of hearing may serve opposing affidavits.
The judgment sought shall be rendered forthwith if
the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits,
if any, show that there is no genuine issue as to any
material fact and that the moving party is entitled to
a judgment as a matter of law; but nothing in this
Code section shall be construed as denying to any
party the right to trial by jury where there are substantial issues of fact to be determined. A summary
judgment may be rendered on the issue of liability
alone although there is a genuine issue as to the
amount of damage.
(d) Case Not Fully Adjudicated on Motion
If on motion under this Code section judgment is
not rendered upon the whole case or for all the relief
asked and a trial is necessary, the court at the hearing

App.31a
of the motion, by examining the pleadings and the
evidence before it and by interrogating counsel shall,
if practicable, ascertain what material facts exist without substantial controversy and what material facts
are actually and in good faith controverted. It shall
thereupon make an order specifying the facts that
appear without substantial controversy, including the
extent to which the amount of damages or other relief
is not in controversy, and directing such proceedings
in the action as are just. Upon the trial of the action
the facts so specified shall be deemed established,
and the trial shall be conducted accordingly.
(e) Form of Affidavits; Further Testimony;
Defense Required
Supporting and opposing affidavits shall be made
on personal knowledge, shall set forth such facts as
would be admissible in the evidence, and shall show
affirmatively that the affiant is competent to testify
to the matters stated therein. Sworn or certified copies
of all papers or parts thereof referred to in an
affidavit shall be attached thereto or served therewith.
The court may permit affidavits to be supplemented
or opposed by depositions, answers to interrogatories,
or further affidavits. All affidavits shall be filed with
the court and copies thereof shall be served on the
opposing parties. When a motion for summary judgment is made and supported as provided in this Code
section, an adverse party may not rest upon the mere
allegations or denials of his pleading, but his response,
by affidavits or as otherwise provided in this Code
section, must set forth specific facts showing that
there is a genuine issue for trial. If he does not so
respond, summary judgment, if appropriate, shall be
entered against him.

App.32a
(f) When Affidavits Are Unavailable
Should it appear from the affidavits of a party
opposing the motion that he cannot, for reasons
stated, present by affidavits facts essential to justify
his opposition, the court may refuse the application
for judgment, or may order a continuance to permit
affidavits to be obtained or depositions to be taken or
discovery to be had, or may make such other order as
is just.
(g) Affidavits Made in Bad Faith
Should it appear to the satisfaction of the court
at any time that any of the affidavits presented
pursuant to this Code section are presented in bad faith
or solely for the purpose of delay, the court shall
forthwith order the party employing them to pay to
the other party the amount of the reasonable expenses
which the filing of the affidavits caused him to incur,
including reasonable attorney's fees, and any offending
party may be adjudged guilty of contempt.
(h) Appeal
An order granting summary judgment on any
issue or as to any party shall be subject to review by
appeal. An order denying summary judgment shall
be subject to review by direct appeal in accordance
with subsection (b) of Code Section 5-6-34.

GA 19-3-60—
Definition; marriage as valuable consideration
(a) As used in this article, the term "antenuptial
agreement" means a contract entered into prior to a

App.33a
marriage that determines property rights or contemplates a future settlement to one spouse as to a future
resolution of issues, including, but not limited to,
year's support, spousal support, and equitable division
of property.
(b) Marriage is a valuable consideration; and a
spouse stands, as to property of the other spouse
settled upon a spouse by marriage contract, as do other
purchasers for value, provided that by the contract a
spouse shall not incapacitate himself or herself from
paying his or her existing just debts.

App.34a
ANTENUPTIAL AGREEMENT
BETWEEN SNYDER AND SHENG
(JANUARY 20, 2010)
STATE OF GEORGIA
COUNTY OF FULTON
________________________
This Antenuptial Agreement made this 20th
day of January, 2010, by and between JAMES P.
SNYDER, of Fulton County, Georgia (hereinafter
referred to as “Husband”), and ZHIHENG SHENG, of
Fulton County, Georgia (hereinafter referred to as
“Wife”),
WITNESSETH:
THAT WHEREAS, Husband and Wife intend
and plan to be married to each other on or about the
30th day of January, 2010; and
WHEREAS, each owns substantial assets consisting of both personal and/or real property; and
WHEREAS, each has acquired substantially all
of his or her separate property independently of and
without the joinder, help, or assistance of the other;
and
WHEREAS, the parties have agreed that each is
economically independent of the other; and
WHEREAS, until there is a formal ceremonial
marriage between themselves, the parties do not
consider themselves married; and
WHEREAS, each desires to keep all of his or her
separate property, whether now owned or hereafter
acquired, free from any claim of the other by virtue

App.35a
of the forthcoming marriage; and WHEREAS, each
has made a full and fair disclosure to the other of his
or her financial worth; and
WHEREAS, the parties, contemplating a long
and lasting marriage to be terminated only by the
death of one of the parties, also recognize that their
marriage might be terminated by way of divorce or
dissolution during the lifetime of both parties; and
WHEREAS, it is the intent and earnest desire of
both parties to this Agreement that, in such an event,
they avoid altogether any and all disputes and/or
controversies with respect to the disposition of any
such assets; and
WHEREAS, each desires to make certain agreements with respect to their respective properties and
their rights and obligations after the solemnization of
their marriage, and to set forth the same in writing;

NOW, THEREFORE, the parties hereto, for and
in consideration of the contemplated marriage of the
parties hereto and of the mutual covenants and agreements herein contained, hereby mutually agree and
covenant as follows:
1.

Assets of the Parties:

The Wife owns the property listed in Exhibit A
(which Exhibit is hereby incorporated by reference).
The Husband owns the property listed in Exhibit B
(which Exhibit is hereby incorporated by reference).
While neither party represents his or her respective
Exhibit to be a precise delineation of his or her assets,
it constitutes a reasonable approximation of such
assets. Each party represents to the other that he or
she has fully disclosed to the other his or her finan-

App.36a
cial situation thereby, subject only to the qualification
that these Exhibits were prepared informally, with
and without reference to documentation.
2.

Children by Prior Marriages:

A.

The Husband has the following named children
by previous marriages, all of whom are emancipated adults: Melissa Dubin Snyder, (d/o/b 12-874) Jennifer Ashmall-Liversidge, (d/o/b 9-28-65)
and Forrest Daniel Snyder, (d/o/b 7-26-91 ).

B. The Wife has the following named child from a
previous marriage: Zhengi Liang, (d/o/b 7-3-93).
C.

The parties agree that Wife’s income, investments
or other financial assets shall not be used or
considered for the purposes of support, financial
assistance, or any other form of income for
Husband’s children for any reason.

The parties agree that Husband’s income, investments or other financial assets shall not be used or
considered for the purposes of support, financial
assistance, or any other form of income for Wife’s Child
for any reason, except as may be required pursuant
to United States Immigration requirements related to
Wife’s and Wife’s child’s applications for immigration.
3.

Assets as Separate Property of the Spouses

Each of the parties agrees that the property
identified as Exhibits A and B and described hereafter
shall remain the separate property of the other party:
All property, whether real or personal, choses
in possession and in action, and any and all
claims, demands, actions, and causes of action,
belonging to the other party at the commence-

App.37a
ment of their marriage, including all such
property acquired by each of them in their
separate names while living together as
Husband and Wife; all property acquired by
the other party out of the proceeds or income
from property owned at the commencement
of marriage, or attributable to appreciation in
value of said property, whether the enhancement is due to market conditions or to the
services, skills, or efforts of either one or
both of the parties; and all property hereafter
acquired by the other party by gift, devise,
bequest, or inheritance.
4.

Separately Acquired Property:

Any property, whether real or personal, choses
in possession and in action, and any and all claims,
demands, actions, and causes of action, acquired by
either party in his or her individual capacity after
the marriage, shall be the separate property of the
individual acquiring the property and neither party
shall make any claim to or demand on such separately
acquired property of the other, nor shall either party
make any such claim or demand on the heirs, executors,
or administrators of the other party, and such property
shall be free of all rights that the other might acquire
by reason of said marriage or of any consequences
thereof.
5.

Jointly-Acquired Property:

James P. Snyder and Zhiheng Sheng agree that
throughout the course of their marriage they will
remain cognizant of title to property. The parties
agree that the joint property of their marriage will be

App.38a
property which they affirmatively designate as joint
property at the time of acquisition or thereafter by
memorandum or other written instrument (“Joint
Property”). The interest of each in Joint Property shall
be a one-half (1/2) undivided interest, unless the
instrument creating the joint interest states a different
division of interest.
6.

Release of Marital Property Rights:

The parties hereby waive and release any and
all right, title, and interest that each may acquire by
operation of law, upon solemnization of the marriage,
to that property specified as the separate property of
the other spouse, in Exhibits A and B, and in Paragraphs 1, 2, 3 and 4 of this Agreement, and that
property is recognized as the separate property of the
other spouse.
7.

Release of Rights of Inheritance:

Each of the parties desires to accord to the other
the absolute and unrestricted privilege and power to
dispose of any and all property on death which may
belong to him or her at such time. Each party clearly
understands that if the other party should predecease him/her, his/her statutory interest in the estate
of the other party could be a substantial amount.
Each of the parties forever waives, releases, and
relinquishes any right or claim of any kind, character,
or nature whatsoever that either may have or shall
have in and to the estate, property, assets, or other
effects of the other under any present or future law
of the State of Georgia or any other state or of the
United States or foreign jurisdiction, except as otherwise specifically provided for in this agreement or

App.39a
any subsequent agreement executed by the parties,
and each of the parties forever waives, releases, and
relinquishes any right or claim that he or she now
has or may have or shall have, pursuant to the laws
of the State of Georgia, or pursuant to any present or
future law of any state or of the United States or
foreign jurisdiction to elect to take in contravention
of the terms of any last will of the other, including
any last will now executed or which may be executed
hereafter, or any disposition of property made by the
other during his or her lifetime or otherwise.
Each of the parties shall refrain from any action
or proceeding that may tend to avoid or nullify to any
extent or in any particular the terms of any such last
will of the other. However, that this paragraph shall not
be construed to defeat any right to inheritance under
the express provisions of a will lawfully executed by
either party.
8.

Prior Debts:

The debts contracted by Husband or Wife prior to
their marriage are to be paid by the party who shall
have contracted the same, and the property of the
other party shall not in any respect be liable for the
payment thereof.
9.

Alimony Waiver:

If the parties separate from one another at any
time following their marriage, for any reason, it is their
mutual desire that each shall maintain and support
himself or herself separately and independently from
the other. Accordingly, each party releases and discharges the other, absolutely and forever, for the rest
of his or her life, from any and all claims and demands

App.40a
for alimony and support, either temporarily or permanently.
10. Disposition of Property to Spouse:
Notwithstanding any other provision of this
Agreement, either party may, by appropriate written
instrument only, transfer, convey, devise, or bequeath
any property to the other, or nominate the other as
Executor of his or her estate. Neither party intends
by this Agreement to limit or restrict in any way the
right to receive any such transfer, conveyance, devise,
or bequest from the other, or to act as such Executor
if so nominated.
11. Waiver or Release of Rights in General:
Except as otherwise provided, each of the parties
forever waives, releases and relinquishes to the other,
and to the heirs, executors, administrators, devisees,
legatees, and assigns of the other, all rights, interest,
or claims of inheritance, and to a distributive share
in the estate of the other (in event of intestacy) either
as widow, widower, heir, survivor, distributee, or next
of kin in and to all of the estate of the other, whether
now owned or hereafter acquired, and all other claims
whatsoever which may in any manner arise or accrue
by virtue of the marriage of the parties under any
present or future law (whether statutory or common
law) of the State of Georgia or of any other state or of
the United States or foreign jurisdiction, and further
waives and releases any and all marital property
rights whatsoever in the property of the other party.

App.41a
12. Interpretation:
No provision in this Agreement is to be interpreted for or against any party because that party or
that party’s legal representative drafted the provision.
13. Representations of Parties by Counsel:

The parties hereto stipulate that they are entering
into this Agreement freely and voluntarily; that they
have ascertained and weighed all the facts and circumstances likely to influence their judgment; that their
rights in the property described in this Agreement
and in Exhibits A and B attached hereto have been
fully explained to them; that they have had full
opportunity to seek and obtain legal advice
independently of each other; that they, and each of
them, were informed of the advisability of being
represented by separate legal counsel of their choice in
the preparation of this agreement; that this agreement
is not the result of any duress or undue influence;
that Randie Siegel has prepared this agreement as
attorney for James P. Snyder and that Scott M. Kaye
is acting as counsel for Zhiheng Sheng in this matter;
that they have read this agreement and have had its
contents explained to them; and that they fully
understand the terms, provisions, and legal consequences of this agreement.
14. Mediation:
The parties hereto agree that in the event a
dispute arises in connection with the terms of this
Agreement they will submit the dispute to a qualified
mediator acceptable to both parties in an attempt to
arrive at a mutually acceptable resolution of any
such dispute in a cooperative and informal manner.

App.42a
Any such mediation session may be attended by
representatives of the parties with full settlement
authority and by each party’s respective counsel and
experts if they so desire. The parties hereto agree to
follow the recommendation of the mediator regarding
the agenda most likely to resolve the dispute. However,
the parties acknowledge that the mediation process is
a compromise negotiation. All offers, promises, conduct
and statements, whether oral or written, made in the
course of the mediation by either of the parties, their
agents, employees, experts or attorneys, or by the
mediator, who is the parties’ joint agent, for purposes
of these compromise negotiations are confidential.
Such offers, promises, conduct, and statements will not
be disclosed to third parties and are privileged and
inadmissible for any purpose, including impeachment,
under Rule 408 of the Federal Rules of Evidence and
any applicable federal or state statute, rule or common
law provisions. However, evidence that is otherwise
admissible or discoverable shall not be rendered inadmissible or not discoverable as a result of its use in
the mediation.
The parties agree not to call the mediator as a
witness or as an expert in any subsequent litigation
or arbitration involving the parties and relating in
any way to the dispute which is the subject of the
mediation. The parties agree that the mediator will
be disqualified as a witness or as an expert in any
subsequent proceeding relating to the dispute which
is the subject of the mediation.
15. Captions:
Paragraph titles or captions contained herein are
inserted as a matter of convenience and for reference

App.43a
only and in no way define, limit, extend, or describe
the scope of this Agreement or of any provision hereof.
16. Applicable Law:
This Agreement is to be construed, interpreted,
and enforced in accordance with the laws of the State
of Georgia, even if subsequent to their contemplated
marriage they establish residence in some other State
of the Union, including a community property State.
17. Severability:
In the event any of the provisions of this Agreement are deemed to be invalid or unenforceable, the
same shall be deemed severable from the remainder of
this Agreement and shall not cause the invalidity or
unenforceability of the remainder of this Agreement. If
such provision shall be deemed invalid due to its scope
or breadth, such provision shall be construed so as to
render the same valid to the extent of the scope or
breadth permitted by law.
18. Scope of Agreement:
The provisions contained in this Agreement
represent the entire understanding between prospective
Husband and prospective Wife pertaining to their
respective property and marital property rights. The
parties agree that, at the request of the other, they will
execute and deliver whatever additional agreements
or releases which may be required in order to effectuate
the intention of this Agreement, and shall execute
and deliver such documentation in order that good
title to any property of either party may be transferred
and conveyed free of any claim of the other party.

App.44a
19. Amendment, Modification, Rescission:
This Agreement may be modified, amended, or
rescinded at any time after the solemnization of the
marriage between the parties only by a written agreement between them signed by the party sought to be
charged therewith.
20. Effective Date of Agreement:
This Agreement shall become effective upon solemnization of the marriage between the parties, and
shall be null and void if the marriage fails to occur
for any reason.
IN WITNESS WHEREOF, the parties have executed this Agreement in duplicate on the day and at
the place first above indicated.
/s/ James P. Snyder
Sworn to and subscribed before me on this the
20th day of January 2010.
/s/ David B. Keith
Notary Public
Dekalb County, GA
My Commission Expires June 13, 2013
Randie Siegel as Counsel for Husband

App.45a

/s/ Zhiheng Sheng
Sworn to and subscribed before me on this the
20th day of January 2010.
/s/ David B. Keith
Notary Public
Dekalb County, GA
My Commission Expires June 13, 2013
Scott Kaye as counsel for wife

App.46a
EXHIBIT “A”
Assets and Liabilities:
1 No. 6 Jinpo Road,
Haikon City, China

$ 155,000.00 USD

2 No. 111-1 Hong Cheng Road,
Haidon City, China
$ 35,000.00 USD
3 No. 66 He Ping Road,
Haikon City, China
4 Xian Ling Road, Yu Hang
District, Hangzhou City,
China Equity
Purchase Price
700,000.00 RMB
Mortgage 500,000.00 RMB
China Yuan Renminbi=RMB
5 2007 Toyota TV7160G

$ 50,000.00 USD

$ 40,000.00 USD

$ 100,000150,000.00 RMB

6 Private English Tutoring School,
Haikon City, China
Gross annual Revenue
$ 300,000 RMB
Grass annual Costs estimate

$ 150,000 RMB

7 Agricultural Bank of China Accounts (2)
1. Misc. Checking/Savings/
Credit Card $ minimal

$ minimal

2. Funds/Stock Accounts
$150-200,000 RMB

$ 150,000200,000 RMB

8 Furniture and Furnishings

$ 80,000.00
RMB

App.47a
EXHIBIT “B”
ASSETS:
Real Property:
1086 Rosedale Drive,
Atlanta, Ga. 30306

VALUED AT
$ 490,000.00 USD

Personal Property:
2008 Mini Cooper

$

17,000.00 USD

Furniture and Fixtures

$

25,000.00 USD

Wachovia Crown Classic #_6460

$

59,470.00 USD

Wachovia Regular Check # 5125

$

462.00 USD

Wachovia Cash Invoice # 2662

$

255.00 USD

Wachovia Personal Sav._# 2458

$

0.00 USD

Wachovia Free Student # 4074

$

1.16 USD

Wachovia Zhiheng # 9581

$

1,308.00 USD

Fidelity Rollover IRA-1 # 6896

$ 422,406.00 USD

Fidelity Rollover IRA-2 # 2550

$ 748,160.00 USD

Fidelity Indiv. Acct. # 8020

$ 246,522.00 USD

Emory Pension Vanguard # 1326 $
TOTAL ASSETS:

97,039.25 USD

$ 2,107,623.41 USD

LIABILITIES:
Secured: mortgage with
CitiMortgage securing
1086 Rosedale Drive, Atlanta

$ 197,933.74 USD

TOTAL LIABILITIES

$ 197,933.74 USD

NET WORTH

$ 1,909,689.67 USD

